NRC: OIG/98A-02 - Review of NRC's Contracting Activities
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1998 >  OIG/98A-02
OIG/98A-02 - Review of NRC's Contracting Activities
May 18, 1998
MEMORANDUM TO:
L. Joseph Callan
Executive Director for Operations
FROM:
Thomas J. Barchi
Assistant Inspector General for Audits
SUBJECT:
REVIEW OF NRC'S CONTRACTING ACTIVITIES
During December 1997, the Office of the Inspector General (OIG) initiated the subject review to determine the nature, extent, and controls over contract price increases.  The purpose of this memorandum is to share our observations and provide some suggestions based on the work performed.
At the request of the Executive Director for Operations, OIG initiated a similar review in 1995 to evaluate the number and significance of cost overruns on commercial contracts at the U.S. Nuclear Regulatory Commission (NRC).  At that time, NRC did not have reliable  summary data needed to identify cost overruns and other contract price increases.  The Division of Contracts and Property Management (DCPM) advised us they were developing a new, automated system from which we could obtain summary data.  We ended that survey with the intent of revisiting the area after the agency implemented its new Contracts and Payments System (CAPS).
Although the agency implemented CAPS in August 1996, our current review found that CAPS contains inaccurate and unreliable data on the nature and extent of contract price increases.  The absence of reliable data prevented us from identifying and evaluating contract price increases and, from examining, to the extent we felt necessary, controls over those price increases.  We were advised that a new contract information system is under development and that CAPS will be merged into the new system.  In addition, we learned that information in this new system may duplicate some data to be contained in STARFIRE, the agency's resource management system that is currently under development.  Finally, it appears that senior managers outside DCPM also have a need for contract information, which CAPS or its successor system may be capable of providing.  These issues are discussed below.
CAPS Data to be Validated; System Being Replaced
CAPS contains a variety of contract information, including financial data related to independent government cost estimates, original ceilings, modification amounts, current ceilings, and obligated funds.  It also provides for the coding of modifications to describe the nature of a contract change.  NRC has established several codes to describe modifications; examples include out-of-scope changes, exercising options, overruns, ratifications, and extending periods of performance.
As we began our review with information provided in CAPS reports, we found original ceiling amounts were often missing or erroneous, and current ceiling amounts were, in most cases, overstated.  Some modification codes, identifying the nature of cost increases, were inaccurate or not recorded.  These inaccuracies in CAPS resulted from programming deficiencies and input errors, which demonstrate a need for stronger internal controls to ensure data reliability.  The Director DCPM stated that the system's reports contained erroneous data.  He said that he planned to validate CAPS data concurrent with the development of a new system involving the merger of CAPS with DCPM's Contract Tracking, Invoice Tracking, and  Purchase Order Tracking Systems.  The Director also indicated that the new system, which is currently being developed and planned for completion in late summer 1998, will not only consolidate existing systems but also will be Year 2000 compliant.
New DCPM System May Be Partially Duplicative of STARFIRE
We also met with representatives of the Office of Administration, the Office of the Chief Financial Officer, and the Office of the Chief Information Officer and discussed whether the DCPM system being developed takes into account the STARFIRE project, specifically the Automated Procurement Module.  We were told that STARFIRE will likely provide some of the existing functions of the new DCPM system, but it is too early to tell how the systems will interface.
Senior Managers Outside DCPM Indicate a Need for CAPS Data
Our review also disclosed that NRC senior level managers outside DCPM have an interest in CAPS, or its planned successor system, as a management tool for contract oversight purposes.  In meetings with the Deputy Executive Director for Management Services, the Assistant for Operations, and the Director, Office of Administration (ADM), each expressed interest in information which the system is capable of providing.  For example, the Director of ADM, was interested in obtaining periodic summary/trend information on contract ratifications and out-of-scope changes.
Suggestions
As DCPM moves forward with the design and implementation of a new, consolidated information system, we believe that the staff charged with this effort should implement effective ongoing internal controls to ensure data accuracy and completeness to prevent the types of problems encountered with CAPS.  Moreover, while planning the merger of its systems, we believe DCPM should coordinate with STARFIRE project management to eliminate or minimize possible duplication of efforts.   Finally, we suggest that management requirements outside DCPM be identified to ensure that DCPM's new system meets the needs of all managers.
We have discussed our observations with DCPM management.  At this time, we do not intend to perform additional work, but will monitor the agency's progress in developing and implementing the new contract information system.  Please contact me at 415-5915 if you have any questions on this matter.
cc:
Chairman Jackson
Commissioner Dicus Commissioner Diaz Commissioner McGaffigan P. Norry, DEDM E. Halman, ADM
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees